Case: 19-15037

Date Filed: 06/22/2020

Page: 1 of 7

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15037
Non-Argument Calendar

D.C. Docket No. l:95-cr-00176-JB-S-2
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
GEORGES MICHEL,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of Alabama
(June 22, 2020)

Before BRANCH, LAGOA, and EDMONDSON, Circuit Judges.

0

Case: 19-15037

Date Filed: 06/22/2020

Page: 3 of 7

total offense level of 41 and a criminal history category of IV, Michel’s guidelines
range was calculated as 360 months to life imprisonment. The district court
sentenced Michel to 400 months’ imprisonment on each count, to run concurrently.
On appeal, we reversed Michel’s conviction for Count Ten. We also
vacated Michel’s sentences for the remaining counts and remanded for
resentencing in the light of the Supreme Court’s decision in Apprendi v. New
Jersey, 530 U.S. 466 (2000).
During the resentencing proceedings, the court relied on the original PSI and
applied the same guidelines calculations made at the original sentencing hearing.
The resentencing court found that Michel was responsible for more than 150
*

kilograms of cocaine. The resentencing court also applied the same three-level
role enhancement that it had applied during Michel’s original sentencing. The
sentencing court then imposed a total sentence of 360 months’ imprisonment: 240
months for Count One to run consecutive to 120-month concurrent sentences for
Counts Two, Four, Five, and Six. The sentencing court also granted the
government’s motion to dismiss Count Ten. We affirmed Michel’s new sentence
on direct appeal.

3

Case: 19-15037

Date Filed: 06/22/2020

Page: 5 of 7

The district court denied Michel’s Rule 36 motion. The district court
concluded that because Michel sought a substantive alteration to his sentence (not
merely the correction of a clerical error), Rule 36 did not fit his purpose. The
district court also concluded that venue was not proper for consideration of
Michel’s request for relief under section 2241.

II.

Discussion

We review de novo the district court’s application of Rule 36. United States
v. Davis. 841 F.3d 1253, 1261 (11th Cir. 2016).
Rule 36 allows a district court to “correct a clerical error in a judgment,
order, or other part of the record, or correct an error in the record arising from
oversight or omission.” Fed. R. Crim. P. 36. We have stressed “that Rule 36 may
not be used to make a substantive alteration to a criminal sentence.” See Davis,
841 F.3d at 1261; United States v. Portillo. 363 F.3d 1161, 1164 (11th Cir. 2004).
Instead, Rule 36 is a remedy to correct errors that are “minor and mechanical in
nature.” Portillo. 363 F.3d at 1165.
Here, Michel’s Rule 36 motion asked the district court to remove from the
PSI facts about Michel’s conduct underlying Count Ten and the resulting three5

Case: 19-15037

Date Filed: 06/22/2020

Page: 7 of 7

motion and had obtained no authorization from this Court to file yet another
section 2255 motion. See Farris v. United States. 333 F.3d 1211, 1216 (11th Cir.
2003) (“Without authorization, the district court lacks jurisdiction to consider a
second or successive petition.”).
AFFIRMED.3

In his appellate brief, Michel argues that the resentencing court exceeded its authority on
remand to make a new drug-quantity finding and also violated Apprendi. We addressed and
rejected these arguments on direct appeal from Michel’s new sentence; we will not revisit those
issues in this appeal. For background, see Schiavo ex rel. Schindler v. Schiavo. 403 F.3d 1289,
1291-92 (11th Cir. 2005) (“Under the law-of-the-case doctrine, the resolution of an issue decided
at one stage of a case is binding at later stages of the same case.” (alteration omitted)).
7

USCA11 Case: 19-15037

Date Filed: 09/30/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15037-DD

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
GEORGES MICHEL,
Defendant - Appellant.

Appeal from the United States District Court
for the Southern District of Alabama
)

ON PETITIONS FOR REHEARING AND PETITION/S ) FOR REHEARING EN BANC
Before BRANCH, LAGOA, and EDMONDSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

H

rV

«•
' i

Case l:95-cr-00176-JB-S

Document 829

Filed 11/26/19

Page 1 of 4

PagelD#: 2451

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
UNITED STATES OF AMERICA,

)
)
)

v.

^^RjMINAL:ACTIQN.NO.ja^l76^B^
Defendant.
ORDER
This action is before the Court on the Defendant Georges Michel's Motion to Correct
Clerical Error Pursuant to FRCP 36. (Doc. 820). The United States has filed a brief in opposition
(DocJJ23) and this matter is now ripe for disposition.
I.

Background.
Georges Michel was convicted by a jury on March 20, 1998. (Doc. 3201. Mr. Michel's
. On July 13,1999,

Michel was sentenced to 400 months in the custody of the United States Bureau of Prisons. (Doc.
SOS)- Michel appealed and the Eleventh Circuit reversed his conviction on Count 101. the second
superseding indictment, vacated his sentence and remanded the case for resentencing. (Doc.
556).
On December 18, 2001, this Court resentenced Mr. Michel to a term of 360 months,
consisting of 240 months as to Count 1 and 120 months as to Counts 2, 4, 5 and 6 to run
concurrently.

(Ppc. 633)- At resentencing, the Court relied upon the original Presentence

Investigation Report and applied the same guidelines calculations it made at the original
sentencing hearing. (Doc. 817: Doc. 6331

l

f

3=5

..

Case l:95-cr-00176-JB-S

Document 829

Filed 11/26/19

Page 2 of 4

PagelD#:2452

Mr. Michel now moves the Court under Rule 36 of the Federal Rules of Criminal Procedure
to correct alleged clerical errors or errors in the record. Rule 36, entitled "Clerical Error" provides:
After giving any notice it considers appropriate, the court may at any time correct
a clerical error in a judgment, order, or other part of the record, or correct an error
in the record arising from oversight or omission.

r:r~r

:Fsdr%r£s4nsrPr36ag
ii:

Tvi oti driTd’cdrrect'u n a e r ku i<F3 o ‘
Review of Mr.Michel's Motion to Correct (Doc. 8201 shows he does not seek to correct a

clerical error or an error in the record. Instead, he asks the Court to correct a different sort of
purported "error." Mr. Michel objects to Judge Butler's reliance upon certain facts reported in
the PSR because they related to the count of the indictment set aside by the Eleventh Circuit, i.e.
Count 10. At the sentencing hearing, the United States sought a four-level enhancement based
on Michel's role as a leader in the conspiracy charged in Count 10 of the indictment. Judge Butler
denied this request because he believed the evidence of Michel's role in the conspiracy
supported a lesser enhancement. Judge Butler assigned a three-level enhancement over the
United States' objection. The facts relating to this Count were considered by Judge Butler as
"relevant conduct" for the purposes of sentencing. The transcript of the sentencing hearing and
Judge Butler's Statement of Reasons document this conclusion. (Doc. 817: Doc. 6331
Despite Mr. Michel's persistent requests, "[ijt is clear in this Circuit that Rule 36 may not
be used to make a substantive alteration to a criminal sentence." United States v. Portillo, 363
F.3d 1161.1164 (11th Cir. 2004) (citation and internal quotation marks omitted); see also United
States v. Cordon, 632 Fed.Appx. 990. 992 (11th Cir. Dec. 1, 2015) ("Rule 36 may not be used to
make substantive changes to a defendant's sentence; it may be used to correct only mistakes

2

0

..

Case l:95-cr-00176-JB-S

Document 829

Filed 11/26/19

Page 3 of 4

PagelD#:2453

that are minor or mechanical in nature."); United States v. Pryor, 631 Fed.Appx. 844.846-47 (11th
Cir. Nov. 19, 2015) (affirming denial of Rule 36 motion where movant "sought a 'substantive
alteration' of his criminal sentence," but "Rule 36 is not an appropriate mechanism for raising
such substantive challenges"). Mr. Michel's Petition is not requesting that a clerical error or a
0"::iStGkc, bccorrcctcd.Jnjtc
sentence beyond the purview of Rule 36.

Mr. Michel's Petition to Correct a Clerical Error

Pursuant to Rule 36 (Doc: 820) is DENIED.
III.

Requests for Alternative Relief Pursuant to 28 U.S.C. 4 2241
As an alternative request, Mr. Michel asks the Court to consider his request as a motion

for relief under 28 U.S.C. 5 2241. This Court is not an appropriate venue for consideration of Mr.
Michel's request. Sectjon 2241 states that a writ of habeas corpus may be granted by a district
court within its "respective jurisdiction." 28 USC 5 2241(al. See also Fernandez v. United States,
941 F.2d 1488.1495 (11th Cir. 1991) ("Section 2241 petitions may be brought only in the district
court for the district in which the inmate is incarcerated."); United States v. Brown, 748 F. App'x
286. 287 (11th Cir. 2019) (unpublished) (concluding that a district court would have lacked
jurisdiction over a petition for time served "because [the inmate] was required to file any § 2241
petition like this in the district where he was incarcerated, which was South Carolina"). Mr.
Michel's address reflects that he is incarcerated in Florida, not the Southern District of Alabama.
Even if this Court were the proper forum for a § 2241 claim, Mr. Michel has not established that
he would be entitled to such relief. Mr. Michel's motion provides no facts demonstrating he is
challenging the execution of his sentence. Mr. Michel simply has challenged the language in the
PSI. His motion demonstrates no specific, concrete, impact on the application of his sentence.

3

1

V

«

-)
Case l:95-cr-00176-JB-S

Document 829

Filed 11/26/19

Page 4 of 4

PagelD #: 2454

Thus, even if this Court was an appropriate venue to bring a § 2241 claim, the claim as presented
is due to be denied.
DONE and ORDERED this 21st day of November, 2019.
/s/JEFFREY U. BEAVERSTOCK
UNITED STATES DISTRICT JUDGE

wmmm

mm

4

CERTIFICATE OF COMPLIANCE
Petitioner hereby certifies, by his undersigned signature, that this petition for
writ of certiorari complies with the word and/or page limitations (6851 words; 37
pages) allowed by the rules of this Court as calculated by the computer count.
CERTIFICATE OF SERVICE
Petitioner hereby certifies, by his undersigned signature, that the original
copy of the foregoing petition was served upon the Office of the Clerk of the
Supreme Court of the United States whose address is: 1 First Street, N.E.,
Washington, DC, 20543; and that a copy was sent to the Office of the United
States Solicitor General of the United States on this £iy day of ,/Vog•>
2020, by First Class U.S. Mail at the following address: 950 Pennsylvania Avenue,
N.W., Washington, DC, 20530.

£
7900 Flarbor Island Drive,
Apt. 906A
North Bay Village, Florida
33141

26

